NO. 21-143
IN THE

Supreme Court of the United States
RAYMOND RODRÍGUEZ-RIVERA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FIRST CIRCUIT

CERTIFICATE OF SERVICE
I, Christopher Escobedo Hart of Foley Hoag LLP,
hereby certify that on this thirty-first day of August
2021, I have caused three (3) true copies of the Brief of
the Massachusetts Association of Criminal Defense
Lawyers, as Amicus Curiae in Support of Raymond
Rodríguez-Rivera’s Petition for a Writ of Certiorari, to
be served by overnight mail upon:
Attorney for Petitioner
Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
Attorney for Respondent
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Ave., NW
Washington, DC 20530
/S/ CHRISTOPHER ESCOBEDO HART
CHRISTOPHER ESCOBEDO HART
Counsel of Record
ANTHONY D. MIRENDA

PETER ELLIS
LAURA D. GRADEL
FOLEY HOAG LLP
Seaport West
155 Seaport Boulevard
Boston, MA 02210
(617) 832-1000
ADM@foleyhoag.com
Counsel for Amicus Curiae
Dated: August 31, 2021

